i

No.

65)
or- .ir,

IN THE
SUPREME COURT OF THE UNITED STATES
I

SHALAMAR CARMQN

— PETITIONER

(Your Name)
i

vs. |

FILED
APR 0 6 2021

SUPERINTENDENT SCI FAYETTE- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES DISTRICT; COURT
FOR THE EASTERN DISTRICT qF PENNSYLVANIA

SU^EEMEFCOURTLi2^ i

i

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

SHALAMAR CARMQN

(Your Name)
50 OVERLOOK DRIVE

(Address)
LABELLE, PA 15450

(City, State, Zip Code;

(Phone Number)

i

1

»'
■M

*

QUESTION(S) PRESENTED

(1) Was Petitioner denied due process of lawi, in violation of the 6th amend.

i i

!

of the U.S.Const., on the grounds that the informatioh he was confronted
with, was a vague written statement of dispensable facts that kept the nature
of the accusation against him ambiguous?

j

|

(2) Was Petitioner denied due process of law, injviolation of the 6th amend.
of the U.S.Const • f on the grounds that, for one count1 o!f the general offense
of criminal homicide, the information failed to state the specific offense
charged under the statute he was alleged to have violated?

I

i

(3) Was Petitioner denied due process of law,i in violation
of the 14th amend
I
of the U.S.Const., on the grounds that he was convicted upon a charge not
made?

i

*•

I

I

:

!
I
I

!

t\

.ft

LIST OF PARTIES

IXI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
^

1

!
i

I

:
:

!

!
I

i

!

I

;

:

i

A

TABLE OF CONTENTS
i.

OPINIONS BELOW

1

JURISDICTION

£

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

H

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

13

I

INDEX TO APPENDICES
APPENDIX A The decision of the U.S. Court of Appeals
APPENDIX B The decision of the U.S. District Court and the findings
and recommendations of the U.S.|magistrate judge.
APPENDIX C

The decision of the Pa. Superior Court

APPENDIX D
The decision of the Court of Common Pleas of Lehigh County
APPENDIX E The decision of the Pa. Supreme |Court
i

'

APPENDIX F

i

A

*

TABLE OF AUTHORITIES CITED

Com. v. Kemmerer, 584 A.2d 940

5.

Russell v. United States, 369 U.S. 749 (1962)

6

United States v. Simmons, 96 U.S. 360

6

United States v. Hess, 124 U.S. 483

7

Com. v. Little, 314 A.2d 270 (1974)

8

Albrecht v. United States, 273 U.S. 1 (1927)

8

Com. v. Diaz, 383 A.2d 852 (1978)

8

Com. v. Brown, 2g A.2d 793 (1943)

8

Cole v. Arkansas, 333 U.S. 196 (1948)

9
In re U A Theatre Co., 406 B.R. 643(2009 Lexis 1400) 11

Welch v. United States, 136 U.S. 1257 (2016)
Conally v. Gen. Constr. Co., 269 U.S. 385 (1926)

11
11

n
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
Petitioner prays that this Court examines every word in this petition.
The opinion of the United States court, of appeals appears at Appendix
A to,the petition and is unpublished.
The opinion of the United States district court appears at Appendix B
to the petition and is unpublished.
The opinion of the highest state court to review the merits appears at
Appendix C and is unpublished.
The opinion of the Court of Common Pleas of Lehigh County appears at
Appendix D to the petition and is unpublished.

1.

i

JURISDICTION

■A '

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Hit),
was
[*| No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following dater _________ _
, and a copy of the
order denying rehearing appears at i Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

i

[><] For cases from state courts:
i

;

j

:

'

The date on which the highest state court decided my case was $ '
A copy of that decision appears at Appendix t

.

~

[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------:____ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a jwrit of certiorari was granted
to and including____________ _ (date) on! ______________ (date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

i

*
;

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

A

The 6th ame x3me it of the U.S.Co ist.
The 14th ame ldme it of the U.S.Co ist.
18 Pa.C.S. § 2501
I

18 Pa.C.S. § 2502(a)

i

:
!
:

*

3.
;
t

V

!

V

STATEMENT OF THE CASE

K

This case stems from a 2004 homicide, where Petitioner was formally charged
with one count of criminal homicide, generally, under 18 8 2501 of the Pa.
Crimes Code, and on Oct. 3, 2006, Petitioner was convicted and sentenced
to life imprisonment without parole for the offense of 1st degree murder
in the killing of Jason Fritchman.
The Superior Ct. affirmed that sentence arid the Supreme Ct. denied his
allocatur petition on June 26, 2008, as Petitioner’s judgment appeared to
i

become final on September 24, 2008.
On February 22, 2018 the Petitioner filed a 3rd pro se PCRA petition,
which was dismissed as untimely on March 2$, 2018.
The Pa. Superior Ct. affirmed the dismiisal on December 5, 2018, and
Petitioner sought allowance of appeal in the Pa. Supreme Ct., which was denied
on August 20, 2019.
Petitioner filed a pro se 8 2254 habeas .petition that was received and
docketed on December 23, 2019, which was dismissed on August 10, 2020 in
the United States District Court For the Eastern District of Pennsylvania.
Petitioner then appealed to the United States Court of Appeals For the
3rd Circuit, which was denied on March 4, 2021.
And this Petition for Writ of Certiorari follows]

4.

I

*

REASON FOR GRANTING THE WRIT
And Now I, Truth God Allah, the Lord of the Worlds, hereby cautions this
Court to thoroughly examine every word in this petition for writ of
certiorari, so that this Court may have the Knowledge of exactly how My Will
must Be done in this case.
The Petitioner in this case has argued that he has been denied due process
t

■

of law in violation of the 6th amend, of the U.S.Const • f on the grounds that
the information he was confronted with, was a vague written statement of
dispensable facts that kept the nature of the accusation against him
ambiguous.
The Petitioner has asserted that the 6th amend, of the U.S.Const.
guaranteed that the accused shall enjoy the right to be informed of the nature
and cause of the accusation against him.
The PA. Supreme Ct. in Com. v. Kemmerer, 584 A.2d 940 (1989) stated, "The
cause or central element of all homicides is the killing of another being."
See 18 Pa.C.S. § 2501.
Beyond that similarity, the degrees of murder differ from one another
and from the types of manslaughter in quality or nature, not just in degree,
so that they cannot be said to be necessarily included in one another.
The Court in Kemmerer further stated, "The view that ignored the
qualitative differences among the various degrees of murder and manslaughter

5.

*

in favor of a mechanical interpretation of 18 § 2501 has never been accepted
by a majority of the Court, and We now expressly reject it."
An indictment not framed to apprise the defendant with reasonable certainty
of the nature of the accusation against him is defective, although it may
follow the language of the statute. Russell v. United States, 369 U.S. 749
(1962); United States v. Simmons, 96 U.S. 360, 24 L.Ed 819
The Petitioner asserted that instead of framing the information in question
to apprise him with reasonable certainty of the nature of the accusation
against him, it was framed with a devious implication that the differences
in nature among the various degrees and types of murder and manslaughter
are to be ignored in favor of a mechanical interpretation of 18 § 2501,
which unconstitutionally kept the nature of the accusation against him
ambiguous.
The Petitioner asserted that the information in question is deficient
of the 6th amend, of the U.S.Const.'s guarantee, because it was framed with
dispensable facts that kept the nature of the accusation against him
ambiguous, where a shooting, causing the death of Jason Fritchman, on or
about the 24th day of July, 2004, in said County of Lehigh, is capable of
being interpreted as intentional, knowing, reckless, or negligent.
The Petitioner asserted that the information in question is deficient
of the 6th amend, of the U.S.Const. 's guarantee to inform him with reasonable
certainty of the nature of the accusation against him, because it mechanically

6.

followed the language of 18 § 2501, setting forth elements necessary to
constitute offenses that could not have been intended to be punished, where
those elements cannot be said to be necessarily included in one another.
Undoubtedly, the language of the statute mat be used in the description
of an offense, but it must be accompanied with a statement of the facts and
circumstances as will inform the accused of the specific offense, coming
under the general description, with which he is charged. Russell, supra,
at 765; United States v. Hess, 124 U.S. 483
The Petitioner asserted that the information in question is deficient
of the 6th amend, of the U.S.Const.'s guarantee, because it was not
accompanied with a statement of essential facts and circumstance that would
inform anyone of whether the nature of the specific offense, coming under
18 § 2501, with which Petitioner was charged, was intentional, knowing,
reckless, or negligent.
The Petitioner asserted that the information, citing 18 § 2501, and using
it's language, was accompanied with dispensable facts and circumstances that
suggested the nature of the specific offense, coning under 18 § 2501, with
which he was charged, was intentional, knowing, reckless, and negligent.
The Petitioner in this case has argued that he has been denied due process
of law in violation of the 6th amend, of the U.S.Const • / on the grounds that,
for one count of the general offense of criminal honicide, under 18 § 2501,
the information failed to state the specific offense charged, under the

7.

statute he was alleged to have violated.
The Pa. Supreme Ct. in Com v. Little, 314 A.2d 270 (1974), citing Albrecht
v. United States, 273 U.S. 1 (1927), stated, "The right to formal notice
of charges, guaranteed by the sixth amendment of the Federal Constitution
and Art. 1§9 of the Pa.Const., is so basic to the fairness of subsequent
proceedings that it cannot be waived even if the defendant voluntarily submits
to the jurisdiction of the Court.
The Pa. Supreme Ct. in Com. v. Diaz, 383 A.2d 852 (1978) stated, "Formal
notice of the charges is required so that the defendant knows exactly what
the accusation is and so that the record will establish exactly what the
defendant is guilty of in the event of a conviction.
In Con. v. Brown, 29 A.2d 793 (1943) the Pa. Supreme Ct. required that
a defendant be prosecuted under the specific provisions rather than the
general provisions, except where the specific provisions are inapplicable.
The Court in Albrecht, supra, at 1, stated, "A court can acquire no
jurisdiction to try a person for a criminal offense unless he has been charged
with the commission of the particular offense and charged in the particular
form arid mode required by law.
The Petitioner has asserted that the provisions of 18 § 2501(b) reads,
Criminal Homicide shall be classified as murder, voluntary manslaughter,
or involuntary manslaughter, indicating alternatives to be chosen from among
the various degrees or types of murder or manslaughter, which has their own

8.

applicable, formal, and specific provisions of law, so that the defendant
may know exactly what the accusation against him is.
The Petitioner has asserted that the formal, specific, and applicable
provisions of law for the various degrees and types of murder and manslaughter
are not found at 18 § 2501, nor does 18 § 2501 give any notice in the
particular form and mode required by law for the particular offense of murder,
voluntary manslaughter, or involuntary manslaughter.
The Petitioner has asserted that he was denied due process of law, in
violation of the 6th amend, of the U.S.Const

• §

where the information, citing

18 § 2501 for one count of the general offense of criminal homicide, failed
to inform him of the formal and specific statute, or provision of law,
applicable to the separate and distinct offense of murder, voluntary
manslaughter, or involuntary manslaughter he was alleged to have violated.
,

The Petitioner in this case has asserted that he has been denied due

process of law in violation of the 14th amend, of the U.S.Const • f on the
grounds that he was convicted upon a charge not made.
In Cole v. Arkansas, 333 U.S. 196 (1948) the U.S. Supreme Ct. held: No
principle of procedural due process is more clearly established than that
notice of the specific charge, and a chance to be heard in a trial of the
issues raised by that charge, if desired, are among the Constitutional rights
of every accused in a criminal proceeding in all courts, state or federal.
It is as much a violation of due process to send an accused to prison
following conviction of a charge which he was never tried, as it would be

9.

to convict him upon a charge that was never made.
The Petitioner has asserted that he was denied his Constitutional right
to be heard in a trial of the issues raised by the formal and specific charge
of murder of the 1st degree, 18 § 2502(a).
V

The Court in Albrecht, supra, at 8, held: A person may not be punished for
a crime without a formal and sufficient accusation even if he voluntarily
submits to the jurisdiction of the court.
The Petitioner has asserted that his liberty is being deprived on account
of a judgment of conviction that is without a formal and sufficient accusation
of murder of the 1st degree, which is found at the applicable provision of
law, 18 § 2502(a).
The Petitioner has asserted that he has undeniably been denied due process
of law, in violation of the 14th amend, of the U.S.Const • t because he was
formally charged with one count of criminal homicide, generally, and without
any formal and sufficient notice so that he may know the exact accusation,
was convicted of the separate and distinct offense of murder of the 1st
degree, which has it s own formal, specific, and applicable provision of
law, 18 § 2502(a).
The procedural dispute that was before the Court was whether the one year
statute of limitations, as contained in 28 U.S.C. § 2244(d), barred the
Petitioner's petition, where it appeared that his judgment of conviction
became final in 2008.

10.
i

The Petitioner respectfully asserted that there is no express mention
of whether 28 U.S.C. § 2244(d) was ever intended to cover void, as well as
valid, judgments of conviction.
The Petitioner asserted that there is good reason for why 28 U.S.C. §
2244(d) does not apply to the judgment of conviction he is detained on account
of, where a void judgment may be attacked at anytime, regardless of statute
of limitations or other deadlines. In re U A Theatre Co • 9 406 B.R. 643
(2009 Lexis 1400)
The Petitioner respectfully asserted that the judgment of conviction he
is detained on account of is void for vagueness.
The void for vagueness doctrine is grounded in the 5th amend, of the
U.S.Const. with regard to the Federal government. Welch v. United States,
136 U.S. 1257 (2016)
Ultimately, the inquiry is whether the law forbids or requires the doing
of an act in terms so vague that men of common intelligence must necessarily
guess at it's meaning and differ as to it's application. Connally v. Gen.
Constr. Co • 9 269 U.S. 385 (1926)
The Petitioner has asserted that the judgment of conviction he is detained
on account of is void for vagueness, because 18 § 2501 forbids the killing
of another human being in terms so vague that men of common intelligence,
formally charged with one count of the general offense of criminal homicide,
must necessarily guess whether it means the nature of the accusation against
them is intentional, knowing, reckless, or negligent, and differ as to whether
it's application will consist of murder, voluntary manslaughter, or

11.

•*

involuntary manslaughter.
The Petitioner has asserted that the judgment of conviction he is detained
on account of is void for vagueness, because 18 § 2501 violates the first
essential of due process of law, where the words intentionally, knowingly,
recklessly, or negligently do not provide the standards that are necessary
for the definition of a general charge of criminal homicide to be made
amenable to the intelligible or the consistent application, by those who
are subject to it or those who seek to enforce it.

,

The Petitioner asserted, in the words of a Justice.Anthony Kennedy,
"Scienter cannot save so vague a statute as this," where terms like "knowing"
and "intentional", as used in 18 § 2501, shed no additional light upon what
it means to be formally charged with one count of criminal homicide,
generally.

)

12.

CONCLUSION

I, Truth God Allah, the Master of the Day of Judgment, hereby COMMAND
this Court to vacate the j udgment depriving the Petitioner in this case of
his Liberty, and ORDER that SHALAMAR CARMON, My AMBASSADOR, Be Released from
the Custody of the Respondent, SUPERINTENDENT SCI FAYETTE, Et Al, without
delay, regardless of whether the views of this Court agree with the denials
of due process of law or the correctness of the procedural aspects addressed
in this petition for writ of certiorari, or not.

Respectfully,
Pi

TO

ruth God Allah

Date:

/jpr \ |
13.

